Management Advisory



Fiscal Year 2010 Sarbanes-
Oxley Testing for Selected
   Business Processes



 Report Number FT-MA-11-003
         May 19, 2011
                                                                            May19, 2011

                                            Fiscal Year 2010 Sarbanes-Oxley Testing
                                                    for Selected Business Processes

                                                         Report Number FT-MA-11-003




IMPACT ON:                                   internal controls over financial reporting,
Financial internal control testing           providing our results to management
performed by the U.S. Postal Service’s       may assist them in improving their
Sarbanes-Oxley (SOX) Management              FY 2011 SOX testing documentation
Controls and Integration group               and, as a result, better assessing their
                                             control environment.
WHY OIG DID THE REVIEW:
The objective of our review was to           WHAT OIG RECOMMENDED:
evaluate the FY 2010 SOX testing             We did not make recommendations but
documentation to determine whether           provided our observations to assist
Postal Service management properly           management in its FY 2011 SOX
tested, documented, and reported its         testing.
testing of specific key SOX financial
reporting controls within the air            WHAT MANAGEMENT SAID:
transportation, highway transportation,      We did not make any recommendations
compensation and benefits, personal          in this report and, as a result,
property/equipment, and motor vehicles       management chose not to respond
business processes.                          formally to this report.

WHAT OIG FOUND:
The SOX Program Management Office
(PMO) properly tested, documented,
and reported its examination of key SOX
financial reporting controls in FY 2010
for air transportation, highway
transportation, and personal
property/equipment. However, for the
compensation and benefits process and
motor vehicles process, the U.S. Postal
Service Office of Inspector General
(OIG) determined the documentation
was insufficient to allow it to replicate
the SOX PMO’s testing or reach the
same conclusions. Since complete and
accurate documentation of SOX testing
is critical to reaching an overall
conclusion on the effectiveness of
May 19, 2011

MEMORANDUM FOR:                   STEVEN R. PHELPS
                                  MANAGER, SOX MANAGEMENT CONTROLS AND
                                  INTEGRATION


                                                                     for
FROM:                             John E. Cihota
                                  Deputy Assistant Inspector General
                                   for Financial Accountability

SUBJECT:                          Management Advisory – Fiscal Year 2010
                                  Sarbanes-Oxley Testing for Selected Business Processes
                                  (Report Number FT-MA-11-003)

This report presents the results of our review of the U.S. Postal Service’s Sarbanes-
Oxley (SOX) testing documentation completed for fiscal year (FY) 2010 for specific key
SOX financial reporting controls within selected business processes1 (Project Number
11BM001FT001). We did not make any recommendations in this report and, as a result,
management chose not to respond formally to this report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, director,
Financial Reporting, or me at 703-248-2100.

Attachments

cc: Joseph Corbett
    Timothy F. O’Reilly
    Jessica L. Doelling
    Douglas G. Germer
    Harold E. Stark
    Corporate Audit and Response Management




1
  We reviewed the FY 2010 SOX Program Management Office’s testing documentation for specific key controls within
the air transportation, highway transportation, compensation and benefits, personal property/equipment, and motor
vehicles business processes.
Fiscal Year 2010 Sarbanes-Oxley Testing for                                                              FT-MA-11-003
 Selected Business Processes


                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Table 1 – Results of Documentation Review................................................................... 2

Recommendations .......................................................................................................... 4

Appendix A: Additional Information ................................................................................. 5

   Background ................................................................................................................. 5
   Objective, Scope, and Methodology ............................................................................ 5
   Prior Audit Coverage ................................................................................................... 6
Fiscal Year 2010 Sarbanes-Oxley Testing for                                           FT-MA-11-003
 Selected Business Processes



Introduction

This report presents the results of our review of the U.S. Postal Service’s Sarbanes-
Oxley (SOX) testing documentation completed for fiscal year (FY) 2010 for specific key
SOX reporting controls within selected business processes2 (Project Number
11BM001FT001). Our objective was to evaluate the testing documentation to determine
whether Postal Service management properly tested, documented, and reported its
testing of specific key SOX financial reporting controls within the five business
processes selected. This review addresses financial risk. See Appendix A for additional
information about this review.

We conducted our review of completed FY 2010 SOX PMO testing documentation, in
part, at the request of the independent public accountant (IPA), to assist in determining
the reliance that can be placed in FY 2011 and into the future on the internal control
testing documentation over the five business process areas. Our review also provided
management with information they can use to improve the quality and reporting of their
testing of key SOX financial controls in FY 2011.

Conclusion

The SOX PMO properly tested, documented, and reported its examination of key SOX
financial reporting controls in FY 2010 for air transportation, highway transportation, and
personal property/equipment. However, for the compensation and benefits process and
motor vehicles process, the U.S. Postal Service Office of Inspector General (OIG)
determined the documentation was insufficient to allow it to replicate the SOX PMO’s
testing or reach the same conclusions. Because complete and accurate documentation
of SOX testing is critical to reaching an overall conclusion on the effectiveness of
internal controls over financial reporting, providing our results to management may
assist them in improving their FY 2011 SOX testing documentation and, as a result,
better assessing their control environment.

Documentation of Testing

In most instances, the documentation included a clear understanding and evidence of
linkage to significant exceptions, cross-references to the tests performed, identification
of individuals who performed the test and when they performed them, as well as
identification of who reviewed the test documents and the dates of the reviews. In many
instances, the documentation included a clear understanding and evidence of the
document’s purpose, source, and cross-referencing of key information. Further, for the
air and highway transportation and the personal property/equipment business

2
 We reviewed the FY 2010 SOX Program Management Office’s (PMO) testing documentation for specific key
controls within the air transportation, highway transportation, compensation and benefits, personal
property/equipment, and motor vehicles business processes.
                                                             1
Fiscal Year 2010 Sarbanes-Oxley Testing for                            FT-MA-11-003
 Selected Business Processes


processes, we concluded we could re-perform the SOX PMO’s testing based on the
documentation and agreed with the testers’ conclusions.

However, opportunities exist to improve testing documentation. For example, some
supporting documents were insufficient or omitted, making it difficult to corroborate the
work performed and conclusions reached. For compensation and benefits, testers found
exceptions they noted as insignificant, but they did not provide the documentation that
supported the exceptions. This made it difficult to reach the same conclusion as the
testers. For motor vehicles, testers did not follow-up on 20 vehicle maintenance facility
motor vehicle inventories that were outstanding well past year-end. As a result, we did
not agree with the conclusions reached by the testers for these business processes.

In addition, we found the SOX PMO could enhance the testing documentation in all
areas by better identifying computer generated information and critical spreadsheets
and providing a more complete explanation of the source from which samples were
selected and the sampling methodologies used. Frequently, the testing documentation
did not demonstrate discussion of the accuracy and completeness of the computer
generated information reports and critical spreadsheets used in testing. See Table 1 for
specific results including examples of well-documented testing practices and suggested
improvements.

                        Table 1 – Results of Documentation Review

 Areas Reviewed                  Instances of Well-                Suggested
                               Documented Testing                Improvements
Air Transportation            Clearly explained when       Random selection portion of
                              tests were not applicable    the sampling methodology
                              and what test steps were     used should be more clearly
                              performed.                   explained.
                              Documentation contained a    Control description should be
                              test example with            clearly defined.
                              supporting documents and     Table needed to support the
                              testing was adequately       results of attribute testing.
                              explained.
Highway                       Well-documented attribute    Support for at least one
Transportation                testing.                     sample item needed.
                              Information was cross-       Explanation needed to
                              indexed and linked           support why control tests
                              between documents.           received late in the year were
                              Clearly documented test      not performed.
                              attributes.




                                              2
Fiscal Year 2010 Sarbanes-Oxley Testing for                             FT-MA-11-003
 Selected Business Processes


Personal                      Clearly explained sampling    Explanation needed for how
Property/Equipment            procedures and selected       the sample was determined
                              items.                        and selected.
                              Tickmark definitions were     Sample test should be
                              clear and use of text boxes   performed at required time.
                              helped with understanding     Attribute descriptions
                              what the testers did.         appropriate to the tests
                              Provided sufficient source    performed are needed.
                              information.
                              Clearly linked inquiry test
                              steps and inquiry results.
Compensation and              Narrative is sufficient and   Documentation needed to
Benefits                      understandable.               support all exceptions found,
                              Format was complete           and support needed for
                              and/or support was clear      determinations that
                              and well annotated.           exceptions are insignificant.
                                                            Copies of key Certifying
                                                            Officer signature cards
                                                            needed.
                                                            Correct references needed
                                                            for all items in the narrative.
                                                            Action taken on computer-
                                                            generated reports should be
                                                            documented.
Motor Vehicles                Format was complete           Testers should complete
                              and/or support was clear      follow-up work.
                              and well annotated.           Explanations needed for
                              Clearly indicated date of     random number generator
                              supporting computer-          and sampling methodology
                              generated reports used as     used.
                              well as, for certain sub-     Complete vehicle information
                              samples taken, the number     needed when testing
                              and types of transactions     controls.
                              available and selected.       Cross-referenced vehicles
                              Clearly indicated and         should match.
                              explained revised sample      Testers should provide the
                              dates.                        workpaper purpose and
                              Clearly identified certain    make sure it is correctly
                              reports used.                 stated.




                                                3
Fiscal Year 2010 Sarbanes-Oxley Testing for                         FT-MA-11-003
 Selected Business Processes


Overall                                                  Testers should put all test
                                                         documentation in the
                                                         Governance, Risk, and
                                                         Compliance Manager
                                                         (GRCm) system. Financial
                                                         Control and Support (FCS)
                                                         documentation was not in the
                                                         system, and we were not
                                                         always able to obtain it from
                                                         FCS employees.
                                                         For all computer-generated
                                                         reports used in testing,
                                                         testers should be sure the
                                                         accuracy and completeness
                                                         of the reports is cross–
                                                         referenced and supported.

Recommendations

We are not making recommendations because the IPA will make the decision on
whether it will use the work of the SOX PMO in its FY 2011 audit. However, we are
providing this information to assist the SOX PMO in improving its FY 2011 SOX testing
documentation.




                                              4
Fiscal Year 2010 Sarbanes-Oxley Testing for                                                  FT-MA-11-003
 Selected Business Processes


                                 Appendix A: Additional Information

Background

To comply with Section 404 of the SOX Act of 2002, Postal Service management must
report on its assessment of the effectiveness of internal controls over financial reporting.
It must submit an annual assessment to the Postal Regulatory Commission, which
monitors and manages the Postal Service’s compliance with SOX. To meet these
requirements, Auditing Standard (AS) No. 53 allows the auditor to use the work
performed by internal employees or contractors working under the direction of
management in its assessment of the effectiveness of internal control over financial
reporting. However, the auditor should evaluate the extent to which it will use the work
of others to reduce the work the auditor might otherwise perform. In consideration of the
AS No. 5 guidance, the IPA requested the OIG to assist in the review of FY 2010 SOX
PMO testing documentation for specific key financial reporting controls. The SOX PMO
team4 and FCS performed the testing of the specific key financial reporting controls over
the five business processes reviewed.

Objective, Scope, and Methodology

The objective of our review was to evaluate the testing documentation to determine
whether Postal Service management properly tested, documented, and reported its
testing of specific key SOX financial reporting controls in FY 2010 within the five
selected business processes.

Following guidance outlined in AS No. 3,5 and in collaboration with the IPA, we
identified specific key financial reporting controls and testing documentation to evaluate
and developed a data collection instrument to record our review. Based on the controls
and documentation specified, we accessed the SOX documentation repository, the
GRCm, and extracted the FY 2010 testing documentation. For testing documentation
that was not retained in GRCm, we obtained the documents from the Postal Service
FCS group.

To perform the review, we examined the completed FY 2010 SOX PMO testing
documentation for specific key controls within the five selected business processes. We
reviewed the documents for such items as source and purpose and a linkage to findings
and controls tested. We examined the documents to verify that testers organized them
in a manner that provided a clear pathway to the conclusions reached and provided an
understandable description of the transactions and records the testers reviewed. Based
on these actions, we assessed whether the documentation contained sufficient
evidence that would allow us to replicate the tests for the five business processes
should the IPA determine it will use the work of the SOX PMO in its FY 2011 audit.

3
  An Audit of Internal Control Over Financial Reporting That Is Integrated with An Audit of Financial Statements,
Public Company Accounting Oversight Board (PCAOB), dated July 27, 2007.
4
  Management contracted with Deloitte & Touche LLP and Global Resources to perform its FY 2010 SOX testing.
5
  Audit Documentation, PCAOB, dated June 9, 2004.


                                                          5
Fiscal Year 2010 Sarbanes-Oxley Testing for                          FT-MA-11-003
 Selected Business Processes



We conducted this review from February through May 2011 in accordance with the
Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on April 27, 2011, and included their comments where appropriate. We
did not rely on computer-generated data for the purposes of this review.

Prior Audit Coverage

The OIG has not performed prior reviews related to this objective.




                                              6
